Aeeeiidix’s Tahlf,

Annendm’s
-££h Circuit Court ofAppeal*__________

Page #.

i&5& Circuit Judges denial of ramnsid^+f

on.., (A).

fe).5& GirraW* **Vrfr>n deni

i to reopen

.(B)?

@,5*^ Circuit difimifiggi ni? APPF.AT.
(C)
Petitioner request to reopen APPP1AT.
(5). Petition

(D)

er request for recrmsidorqtifw

IJgB£^hg-^e§temDi6trictin A»«Hr, T.
exas

UDSC ^gg^toae^feioW r~p,QO*.
—fe)- P transcripts an

dthe complete record w-miaa* flrt

—&)- P Petitioner request for transeptR
_(8). Petitioners

fnr

records

—^-Magistrates ruling for trana™
iDtUSDC

(G).
(H).

1D.

5™ circuit court of appeal
DECISIONS.

5ft Circuit Judges denial of reconsideration... (A).

appendix tab-a.

I

Case: 20-50851

Document: 00515904806

Page: 1

Date Filed: 06/17/2021

tHntteli States Court of appeals!
for tf)t jf tftfj Ctrcutt
No. 20-50851
Cathy Carr,
Plaintiff—Appellant,
versus
National Presto Industries, Incorporated: The WalMart Store; The Waemart Corporation; Other
Unknown Defendants,
Defendants—Appellees.
Appeal from the United States District Court
for the Western District of Texas
USDC No.-I*19-CV-191
ORDER:

u
On June 2, 2021, the clerk DENIED Appellant’s motion to reopen
the caserUpon consideration of Appellant’s motion for recdrisideration,IT
IS ORDERED that the motion is DENIED.

-7^James C. Ho
'
United States Circuit Judge

Case: 20-50851

Document: 00515904805

Page: 1

Date Filed: 06/17/2021

United States Court of Appeals
lylew.cayce
clerk

FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-3KL7700
600 S. MAESTRI PLACE,

Suite 115
NEW ORLEANS, LA 70130

June 17, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED
BELOW:
No. 20-50851
Carr v. Ntl Presto Indus
USDC No. 1:19-CV-191
Enclosed iIS an order entered in this.
case.
Sincerely,
LYLE W. CAYCE,

Clerk

By;
Roeshawn johnsonT Deputy Clerk
504-310-7998
Ms.
Ms.
Mr.
Mr.
Mr.

Cathy Carr
Jeannette Clack
Michael H. Hull
Timothy Riley Schupp
Robert William Vaccaro

2- 5th Circuit clerk's denial to

APPENDIX tab-b.

m

Case: 20-50851

Document: 00515884212

Page: 1

Date Filed: 06/02/2021

UnitedSt
OFFICE OF THE CLERK

LYLE VV. CAYCE
CLERK

TEL. 504-310-7700

«oo& Maestri place

Suite 115
NEW ORLEANS tA 70130

June 02, 2021
OR PARTIES
LISTED BELOW:
Carr v
: NP Presto IIndus
USDC No.
1.-19-CV-19!

memorandum T° COUNSEL

No. 20-50851
The

court has denied

aPpellant 's motion to

reinstate the appeal.

Sincerel Y,
LYLE W. CAYCE,
Clerk
By:
Ms. Cathy Carr
Ms. Jeannette
Mr. Michael H Clack
HiTtT
Mr.
Mr.

5 0 4~310-7 9ffH5°HrTOP'rEF~CIerk

a

3‘ — Circuit dismissal OF APPEAT.

appendix tab-c.

I

I

(C).

oase: 2U-50851

Document: 00515904843

Case: Q^JSSS-cvtStfitlM^iE 0Q&®

Page: 20

Date Filed: 06/14/2021

iFi^feoa/27aateiii^eiaodfa7/202i

Wiuiteto States Court of &ppeafe
January 27,2021
for tfie Jftftf) Circuit
FILED

CLERK, U.S. DISTRICT COURT

WESTERN1 DSTRICT OF TEXAS

i

JVicha

BY:

No. 20-50851

DEPUTY

sstan
A True Copy
Cferllflcd order issued Jan 27,2021

Cathy Carr,

*3'$. W. Otoju
Ctert* US. Court of ^pcats, innii Circuit

b

Af

Plaintiff—Appellant)
versus

ESi*til

Unknown D^SanS

^ »«.-

Co"°“«°»i Ot»„*

Plefeudants—Appellees.
Appeal from the United States District C
ourt
for the Western District of Texas
USDCNo. !:19-CV-19i
CLERK'S OFFICE:
2091 f
? ClR' R* 42'3> ‘b® apped is disn3issed
as ofJanuary 27,
aoSLforwantofprosecution. The appellant failed tod
dmely order transcript
and make financial arrangements with the court
reporter.

Case: 20-50851
case:e&S08a©

Document: 00515904843

Page: 21

Date Fifed: 06/14/2021
jnt3Sfee»27flatefPa^(3M}.a7/2021
20-50851

LYLE W. CAYCE
Clerk of the United States Court
^Appeals for the Fifth Circuit
By:

“"“OATTHEDHiECTIONor
tHE COURT

2

Case l:19-cv-00191-RP Document 79 Filed 09/12/20 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
CATHY CARR,
Plaintiff,
v.

1:19-CV-191-RP

NATIONAL PRESTO INDUSTRIES, INC.,
et al.,
Defendants.
ORDER
Before the Court is the order and report and recommendation of United States Magistrate
Judge Mark Lane concerning Defendants’ Motion for Summary Judgment, (Dkt. 32), Plaintiff s
Motion for Summary Judgment, (Dkt. 39), Plaintiffs Motion to Exclude Intertek Papers, (Dkt. 42),
Plaintiffs Motion to Compel Discovery from Defendants, (Dkt. 43), and Plaintiffs Motion to
Exclude Both Experts of the Defendants for Cause, (Dkt. 44). (Order and R. & R., Dkt. 71). In his
report and recommendation, Judge Lane recommends that the Court grant Defendants’ Motion for
Summary Judgment and deny Plaintiffs Motion for Summary Judgment. (Id. at 10). In his order,
Judge Lane denied Plaintiffs Motion to Exclude Intertek Papers, Plaintiffs Motion to Compel
Discovery from Defendants, and Plaintiffs Motion to Exclude Both Experts of the Defendants for
Cause. (Id. at 10—11). Plaintiff Cathy Carr (“Carr”) timely filed objections to the report and
recommendation, (Objs., Dkt. 74), and the Court construes her objections also as an appeal from
Judge Lane’s orders on her nondispositive motions, (see id.).
A party may serve and file specific, written objections to a magistrate judge’s findings and
recommendations within fourteen days after being served with a copy of the report and
recommendation and, in doing so, secure de novo review by the district court. 28 U.S.C.
§ 636(b)(1)(C). Because Carr timely objected to each portion of the report and recommendation, the
1

Case l:19-cv-00191-RP Document 79 Filed 09/12/20 Page 2 of 3

Court reviews the report and recommendation de novo. Having done so, the Court overrules Carr’s
objections and adopts the report and recommendation as its own order.
A district judge may reconsider any pretrial matter determined by a magistrate judge where it
has been shown that the magistrate judge’s order is clearly erroneous or contrary to law. 28 U.S.C. §
636(b)(1)(A). District courts apply a “clearly erroneous” standard when reviewing a magistrate
judge’s ruling under the referral authority of that statute. Castillo v. Frank, 70 F.3d 382, 385 (5th Cir.
1995). The clearly erroneous or contrary to law standard of review is “highly deferential” and
requires the court to affirm the decision of the magistrate judge unless, based on the entire evidence,
the court reaches “a definite and firm conviction that a mistake has been committed.” Gome^ v. Ford
Motor Co., No. 5:15-CV-866-DAE, 2017 WL 5201797, at *2 (W.D. Tex. Apr. 27, 2017) (quoting
United States v. United States Gypsum Co., 333 U.S. 364, 395 (1948)). The clearly erroneous standard
“does not entitle the court to reverse or reconsider the order simply because it would or could
decide the matter differently.” Id. (citing Gunman v. Hacienda Records <& Recording Studio, Inc., 808 F.3d
1031,1036 (5th Cir. 2015)). Because Carr timely filed an appeal from Judge Lane’s order, the Court
reviews Judge Lane’s order to determine if it is clearly erroneous or contrary to law. Having done so,
the Court denies Carr’s appeal and affirms Judge Lane’s order.
Accordingly, the Court ORDERS that the report and recommendation of United States
Magistrate Judge Mark Lane, (Dkt. 71), is ADOPTED. The Court GRANTS Defendants’ Motion
for Summary Judgment, (Dkt. 32), and DENIES Plaintiffs Motion for Summary Judgment, (Dkt.
39).

2

Case l:19-cv-00191-RP Document 79 Filed 09/12/20 Page 3 of 3

IT IS FURTHER ORDERED that the Court AFFIRMS Judge Lane’s order denying
Plaintiffs Motion to Exclude Intertek Papers, (Dkt. 42), Plaintiffs Motion to Compel Discovery
from Defendants, (Dkt. 43), and Plaintiffs Motion to Exclude Both Experts of the Defendants for
Cause, (Dkt. 44). (Order and R. & R., Dkt. 71).
IT IS FURTHER ORDERED that the Court DENIES Carr’s appeal, (Dkt. 74).
IT IS FINALLY ORDERED that Carr’s claims are DISMISSED WITH PREJUDICE.
The Court will enter final judgment by separate order.
SIGNED on September 12, 2020.

ROBERT PITMAN
UNITED STATES DISTRICT JUDGE

3

Case l:19-cv-00191-RP Document 71 Filed 08/07/20 Page 1 of 11

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
CATHY CARR,
Plaintiff,
V.
NATIONAL PRESTO INDUSTRIES,
INC., ET AL.,
Defendants.

§
§
§
§
§
§
§

A-19-CV-191-RP

ORDER AND REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE
TO THE HONORABLE ROBERT PITMAN
UNITED STATES DISTRICT JUDGE:
Before the court are Defendants’ Motion for Summary Judgment (Dkt. #32), Plaintiffs
Motion for Summary Judgment (Dkt. #39), Plaintiffs Motion to Disqualify the Expert
Testimony of the Defendants (Dkt. #41), Plaintiffs Motion to Exclude Intertek Papers (Dkt.
#42), Plaintiffs Motion to Compel Discovery from the Defendants (Dkt. #43), Plaintiffs Motion
to Exclude Both Experts of the Defendants for Cause (Dkt. #44), and all related briefing. i
Having considered the briefing, the applicable law, the entire case file, and determining that a
hearing is not necessary, the court issues the following order and report and recommendation.
I.

Background
Proceeding pro se, Cathy Carr brings this suit against National Presto Industries, Inc., the

Walmart Store, and Walmart Corporation (with Walmart, as “Walmart,” with National Presto, as
“Defendants”) for damages allegedly caused by a food dehydrator manufactured by National
Presto and purchased from Walmart that caught fire in her apartment. Dkt. #1. She asserts
1 The dispositive motions were referred to the undersigned for a Report and Recommendation and the nondispositive motions were referred for disposition by United States District Judge, Robert Pitman, pursuant to 28
U.S.C. § 636, Federal Rule of Civil Procedure 72, and Rule 1 of Appendix C of the Local Rules of the United States
District Court for the Western District of Texas.
1

Case l:19-cv-00191-RP Document 71 Filed 08/07/20 Page 2 of 11

claims for breach of written and implied warranty, products liability, unspecified portions of the
UCC, personal injury, and negligence. Id. at 14-16.
Before the court are the parties’ cross motions for summary judgment and a slew of other
non-dispositive motions filed by Carr in response to Defendants’ summary judgment motion. As
the summary judgment motions were filed first, the court will first consider those and then
consider whether the remaining motions would alter the summary judgment analysis.
II.

Summary Judgment and Expert Standards
Summary judgment is appropriate under Rule 56 of the Federal Rules of Civil Procedure

only “if the movant shows there is no genuine dispute as to any material fact and that the movant
is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). A dispute is genuine only if
the evidence is such that a reasonable jury could return a verdict for the nonmoving party.
Anderson v. Liberty Lobby, Inc., All U.S. 242, 254 (1986).
Once the moving party has made an initial showing that there is no evidence to support
the nonmoving party's case, the party opposing the motion must come forward with competent
summary judgment evidence of the existence of a genuine fact issue. Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 586 (1986). Mere conclusory allegations are not competent
summary judgment evidence, and thus are insufficient to defeat a motion for summary judgment.
Turner v. Baylor Richardson Med. Ctr., 476 F.3d 337, 343 (5th Cir. 2007). Unsubstantiated
assertions, improbable inferences, and unsupported speculation are not competent summary
judgment evidence. Id. The party opposing summary judgment is required to identify specific
evidence in the record and to articulate the precise manner in which that evidence supports his
claim. Adams v. Travelers Indem. Co. of Conn., 465 F.3d 156, 164 (5th Cir. 2006). The parties
may satisfy their respective burdens by tendering depositions, affidavits, and other competent

2

Case l:19-cv-00191-RP Document 71 Filed 08/07/20 Page 3 of 11

evidence. Estate of Smith v. United States, 391 F.3d 621, 625 (5th Cir. 2004). Rule 56 does not
impose a duty on the court to “sift through the record in search of evidence” to support the
nonmovant's opposition to the motion for summary judgment. Id.
The court will view the summary judgment evidence in the light most favorable to the
non-movant. Griffin v. United Parcel Serv., Inc., 661 F.3d 216, 221 (5th Cir. 2011). The non­
movant must respond to the motion by setting forth particular facts indicating that there is a
genuine issue for trial. Miss. River Basin Alliance v. Westphal, 230 F.3d 170, 174 (5th Cir.
2000). “After the non-movant has been given the opportunity to raise a genuine factual issue, if
no reasonable juror could find for the non-movant, summary judgment will be granted.” Id.
Rule 702 of the Federal Rules of Evidence governs the admissibility of expert testimony,
providing that:
(a) the expert’s scientific, technical, or other specialized knowledge will help the
trier of fact to understand the evidence or to determine a fact in issue;
(b) the testimony is based on sufficient facts or data;
(c) the testimony is the product of reliable principles and methods; and
(d) the expert has reliably applied the principles and methods to the facts of the
case.
Fed. R. Evid. 702. Rule 702 was amended to incorporate the principles first articulated by the
United States Supreme Court in Daubert v. Merrill Dow Pharmaceuticals, Inc., 509 U.S. 579
(1993). See Fed. R. Evid. 702, Adv. Comm. Notes (2000). Under Daubert, expert testimony is
admissible only if the proponent demonstrates that: (1) the expert is qualified; (2) the evidence is
relevant to the suit; and (3) the evidence is reliable. See Moore v. Ashland Chem. Inc., 151 F.3d
269, 276 (5th Cir. 1998); Watkins v. Telsmith, Inc., 121 F.3d 984, 989 (5th Cir. 1997).
Following Daubert and its progeny, trial courts act as gatekeepers, overseeing the
admission of scientific and nonscientific expert testimony. See Kumho Tire Co. v. Carmichael,
526 U.S. 137, 147 (1999). Trial courts must make “a preliminary assessment of whether the

3

Case l:19-cv-00191-RP Document 71 Filed 08/07/20 Page 4 of 11

reasoning or methodology underlying the testimony is scientifically valid and of whether that
reasoning or methodology properly can be applied to the facts in issue.” Daubert, 509 U.S. at
592-93. In carrying out this task, district courts have broad latitude in weighing the reliability of
expert testimony for admissibility. See Kumho Tire Co., 526 U.S. at 152. The district court’s
responsibility “is to make certain that an expert, whether basing testimony upon professional
studies or personal experience, employs in the courtroom the same level of intellectual rigor that
characterizes the practice of an expert in the relevant field.” Id.
III.

Summary Judgment Motions
Defendants contend that Carr has not retained an expert to testify as to the what caused

the fire and therefore cannot prove that the food dehydrator caused the fire in her apartment or
was defective. Fire personnel, who responded to the apartment fire, created an Incident Detail
Report that stated “[t]he cause of the small fire was unattended cooking. The resident had left
something in an electric appliance cooking container that overheated and burned.” Dkt. #32,
Exh. A at 2.
Defendants’ expert, Joe Sesniak, relied on the Incident Detail Report; photographs related
to the scene, which show a very cluttered surface surrounding the food dehydrator; a visual
inspection the food dehydrator; and radiographic images of the food dehydrator.2 Dkt. #32, Exh.
B at 2-3. He noted the food dehydrator was placed on top of the cooktop, an uneven surface, in
violation of the manufacturer’s instructions. Id. at App’x 1, Inst. 10. The food dehydrator
showed melt damage to only one side of the unit, and Sesniak ruled out any type of overheating
condition of the heating element as a whole. Id. at 8. He found the heating element was “intact
and continuous” and there were no areas of melt damage visible on the heating element wire or
any visible evidence of a short circuit or other heating element failure. Id. Sesniak concluded,
2 Carr did not allow him to disassemble the unit to test it. !d. at 8.

4

Case l:19-cv-00191-RP Document 71 Filed 08/07/20 Page 5 of 11

among other things, that; 1) there was insufficient evidence to determine the fire’s point of
origin, 2) fire effects on the dehydrator were consistent with exposure to an external heat source,
and 3) no apparent failure or defect in the dehydrator was identified during visual inspection. Id.
at 11-12. Jeff Morgan, National Presto’s Vice President of Engineering and International Supply
Chain, reviewed Sesniak’s report and agreed with his opinions. Dkt. #32, Exh. 2 at

7-8.

Defendants argue that the fire personnel only opined as to the fire’s origin, but they did
not opine as to a product defect or cause of the fire.

Defendants contend Carr’s ipso facto

causation argument is legally insufficient to establish causation. See Dkt. #32 at 9-11 (citing
cases).
Without leave of court and very late,3 Carr filed a 43-page response, Dkt. #37, and a 48page Declaration, Dkt. #38, in opposition to Defendants’ motion, and much of both documents
are single spaced and highly repetitive.4 Both the Response and the Declaration assert the same
arguments opposing Defendants’ motion. Carr filed her own summary judgment motion the
same day she filed her response to Defendants’ motion, which mostly rehashes the arguments of
Defendants’ motion. In summary, Carr objects to Sesnaik’s qualifications and methodology and
argues her own theory that the food dehydrator overheated causing the fire with her own
explanation of how this could have happened.5 As evidentiary support, she relies on her own

i

3 Defendants filed their reply before Carr filed her response to Defendants’ motion because it seems Canserved, but did not file, a response to Defendants’ motion, an amended response, and a request that the summary
judgment motion be deferred so she could take additional discovery, which she sent to Defendants on several days
later on April 9,2020. See Dkt. #34. The discovery deadline in this case was April 30, 2020.
4 “Unless otherwise authorized by the court, a response to a dispositive motion is limited to 20 pages . . . .
exclusive of the caption, signature block, any certificate, and accompanying documents.” Local Rule CV-7(e)(3);
see also Local Rule CV-10(a) (requiring double spacing of all pleadings, motions, and other submissions).
5 Carr contends the food dehydrator could only function at one temperature, which was too hot for herbs. She
also contends the food dehydrator allowed liquid to drip onto the heating coils. In later briefing, she asserts a fan
blade was also defective. It is unclear whether she intends that one or a combination of these issues started the fire.
However, resolving this confusion is not necessary to these motions.
5

Case l:19-cv-00191-RP Document 71 Filed 08/07/20 Page 6 of 11

observations of the scene after the fire was extinguished,6 the fire department’s Incident Detail
Report, and others’ online reviews of the product.
Carr alleges the food dehydrator was defective and caused the fire in her apartment, and
this allegation is central to all of her claims. Although Defendants submitted their expert’s
report, which concluded the cause of the fire could not be determined, Defendants’ primary basis
for summary judgment is that Carr has no expert opinion that the food dehydrator caused the fire.
Carr’s expert designation was due on January 15, 2020, Dkt. #23 at f 5, and it is undisputed she
did not identify an expert or serve an expert report.
To prove a design defect under Texas law, “a plaintiff must prove that (1) the product
was defectively designed so as to render it unreasonably dangerous; (2) a safer alternative design
existed; and (3) the defect was a producing cause of the injury for which the plaintiff seeks
recovery.” Emery v. Medtronic, Inc., 793 F. App’x 293, 295 (5th Cir. 2019) (quoting Goodner v.
Hyundai Motor Co., 650 F.3d 1034, 1040 (5th Cir. 2011)). To be a producing cause, “(1) the
cause must be a substantial cause of the event in issue and (2) it must be a but-for cause, namely
one without which the event would not have occurred.” Id. (quoting Ford Motor Co. v. Ledesma,
242 S.W.3d 32, 46 (Tex. 2007)). “Under Texas law, expert testimony is generally encouraged if
not required to establish a products liability claim. In particular, expert testimony is crucial in
establishing that the alleged design defect caused the injury.” Id. (quoting Sims v. Kia Motors of
Am., Inc., 839 F.3d 393, 409 (5th Cir. 2016)). “Lay testimony is adequate to prove causation in
those cases in which general experience and common sense will enable a layman to determine,
with reasonable probability, the causal relationship between the event and the condition.” Id. at
295-96 (quoting Morgan v. Compugraphic Corp., 675 S.W.2d 729, 733 (Tex. 1984)). In a
similar case involving a plug-in air freshener that allegedly started a house fire, the court held
6 It is undisputed she was not at home when the fire occurred. See Dkt. #32, Exh. A.

6

Case l:19-cv-00191-RP Document 71 Filed 08/07/20 Page 7 of 11

resolution of the causation issue by laypersons “would be purely speculative.” Andrews v. Dial
Corp., 143 F. Supp. 3d 522, 529 (W.D. Tex. 2015) (Sparks, J.). The court granted summary
judgment in defendant’s favor because the plaintiff was “required to present competent expert
testimony on the causation question and failed to do so.” Id. at 530.
Carr relies on the fire department’s Incident Detail Report from the fire, which states:
The cause of the small fire was unattended cooking. The resident had left
something in an electric appliance cooking container that overheated and burned.
Damage was contained to the cooking pot with some heat damage to the cabinet
and refrigerator. Water damage was throughout the building.
Dkt. #32 Exh. A at 2, 3. In Andrews, where plaintiffs asserted a plug-in air freshener started a
fire, the court held a fire-department investigator’s opinions about the cause of the fire were
speculative. Andrews, 143 F. Supp. 3d at 529 (“[his] opinions that a malfunction in the Renuzit
air freshener caused the fire are speculative”). The court found the fire department investigator
was “clearly qualified to opine concerning the area and point of origin of a fire, [but] that does
not mean [he is] qualified to opine concerning whether a defect in a particular product caused a
fire.” Id. The fire department’s Incident Detail Report in this case is no more entitled to expert
status. Carr has provided no information about the fire department employees who completed
the report or their qualifications. Carr did not designate them as experts. No one from the fire
department examined the food dehydrator to determine whether a defect in the device caused the
fire. Accordingly, the fire department Incident Detail Report is inadequate to show causation on
this case.
Carr asserts she is qualified to opine on causation based on her membership in “Texas
Hackers Space” and because “she designs things and she creates and makes products.” Dkt. #37
at 6. Carr has not shown she is qualified to opine on the cause of the fire or defects of the food
dehydrator. She is qualified to testify as to her first-hand observations of the apartment and food
7

Case l:19-cv-00191-RP Document 71 Filed 08/07/20 Page 8 of 11

dehydrator after the fire, but she may not speculate on what caused the fire or what may have
been wrong with the food dehydrator.
Carr also relies consumer product reviews to contend the food dehydrator has design
defects. However, Carr fails to actually link these consumer opinions to the product at issue and
show these opinions are actually opinions on this particular food dehydrator.7 Moreover, these
opinions are no more reliable than her own or the fire department employees’. Carr has not
shown any of these individuals are qualified to opine on causation or that their circumstances are
sufficiently similar to her own.
Accordingly, Carr has come forward with no competent summary judgment evidence on
causation. “Although Plaintiff’s] evidence may create ‘a strong suspicion’ that a defect in the
[food dehydrator] caused the fire, suspicion is insufficient to demonstrate causation.” See
Andrews, 143 F. Supp. 3d at 529-30. Therefore, the undersigned will recommend Defendants’
summary judgment motion be granted and Carr’s motion be denied.
IV.

Other Motions and Relief
Carr’s summary judgment filings and other motions raise several other issues that she

contends should prevent summary judgment. However, none of these issues change the fact that
Carr has no expert opinion on causation.
Carr first attacks Sesniak’s qualifications as an expert. Sesniak has a Bachelor of Science
in Fire, Arson & Explosion Investigation from Eastern Kentucky University. Dkt. #32 at App’x
2. He has been the owner and principal expert of Forensic Fire Consultants since 2000 and has
worked in fire investigation roles since at least 1985. Id. He has various fire investigation
certifications, has provided expert opinions in numerous cases, has received additional training

7 The opinions appear to be online product reviews, but the specific product being reviewed is not demonstrated
from what was provided.
8

Case l:19-cv-00191-RP Document 71 Filed 08/07/20 Page 9 of 11

on the topic, has taught on the topic, and has .published on the topic. Id. He is adequately
qualified to give his opinion in this case.
Carr also argues Sesniak’s methodology is unreliable.

She argues he states there is

nothing defective in the food dehydrator but clearly a broken fan blade is defective. However,
Carr misstates his opinion. He opined that he could find nothing defective that caused the fire
and the damaged fan blade was where the unit had been damaged by fire. Carr is in effect
arguing that a broken fan blade caused the fire rather than the fire caused the broken fan blade.
While she may disagree with his opinion, this does not render his opinion unreliable.
Carr also complains that he attached a 2018 device manual to his report when her fire was
in 2017 and that he used a different model device to render his opinion. Defendants contend the
manuals are only immaterially different and Carr was informed of this in a supplemental report.
Similarly, Defendants point out that Carr did not allow Sesniak to disassemble her device and the
feature that Carr complains is different—the power indicator light—is immaterial to his analysis.
Finally, Carr complains that she did not have time to fully review his report. However, Carr did
not seek leave to extend the time to object to report.
Carr also objects to Jeff Morgan’s “expert” opinion. Morgan is National Presto’s Vice
President of Engineering and International Supply Chain.

He was designated as a fact witness,

not an expert, and can testify as to how the product at issue worked.

Accordingly, the

undersigned denies Carr’s motions to disqualify experts as presented in response to Defendants’
summary judgment motion, her own summary judgment motion, and her two separate motions to
disqualify. Dkt. #41, #44. Moreover, even if the court were to strike Sesniak and Morgan, Carr
still has not shown the fire was caused by a defect in the food dehydrator.

9

Case l:19-cv-00191-RP Document 71 Filed 08/07/20 Page 10 of 11

Carr also moves to strike the 2018 device manual attached to Sesniak’s report.

She

claims she sought this in discovery as well as other documents that were not produced. On April
27, 2020, Carr moved to compel additional discovery from Defendants that she claims she
previously asked for but was not provided. Discovery in this case closed April 30, 2020. Dkt.
#23 at

7. Carr includes discovery requests that are dated late March 2020, but Defendants

contend they were not sent these requests until early April 2020 giving them insufficient time to
respond before the discovery deadline. See Local Rule CV- 16(d) (“Written discovery is not
timely unless the response to that discovery would be due before the discovery deadline. The
responding party has no obligation to respond and object to written discovery if the response and
objection would not be due until after the discovery deadline.”)- Carr presents nothing to support
her claim that she previously requested the documents. Carr also seeks to force Defendants’
expert to respond to certain requests for admission. This is not allowed under the Federal Rules
of Civil Procedure. If Carr wanted to question Sesniak, she could have sought his deposition.
Most importantly, none of the requested relief will change the outcome of the parties’ summary
judgment motions. Accordingly, the requested relief is denied.
V.

Order and Recommendations
For the reasons stated above, the court RECOMMENDS Defendants’ Motion for

Summary Judgment (Dkt. #32) be GRANTED, Carr’s claims be dismissed with prejudice, and
judgment be entered in favor of Defendants. The court further RECOMMENDS Plaintiffs
Motion for Summary Judgment (Dkt. #39) be DENIED.
The court DENIES Plaintiffs Motion to Disqualify the Expert Testimony of the
Defendants (Dkt. #41), Plaintiffs Motion to Exclude Intertek Papers (Dkt. #42), Plaintiffs

10

Case l:19-cv-00191-RP Document 71 Filed 08/07/20 Page 11 of 11

Motion to Compel Discovery from the Defendants (Diet. #43), Plaintiffs Motion to Exclude
Both Experts of the Defendants for Cause (Dkt. #44).
VI.

Objections
The parties may file objections to this Report and Recommendation.

A party filing

objections must specifically identify those findings or recommendations to which objections are
being made. The District Court need not consider frivolous, conclusive, or general objections.
See Battles v. United States Parole Comm ’n, 834 F.2d 419, 421 (5th Cir. 1987).
A party’s failure to file written objections to the proposed findings and recommendations
contained in this Report within fourteen (14) days after the party is served with a copy of the
Report shall bar that party from de novo review by the District Court of the proposed findings
and recommendations in the Report and, except upon grounds of plain error, shall bar the party
from appellate review of unobjected-to proposed factual findings and legal conclusions accepted
by the District Court. See 28 U.S.C. § 636(b)(1)(C); Thomas v. Am, 474 U.S. 140 (1985);
Douglass v. United Services Automobile Ass ’n, 79 F.3d 1415 (5th Cir. 1996)(en banc).

SIGNED August 7, 2020.
MARK LANE' ///
UNITED STATE/ MAGISTRATE JUDGE

11

Additional material
from this filing is
available in the
Clerk's Office.

i
i

i

